                                     SOCIAL SECURITY
MEMORANDUM

Date:   June 22, 2010                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: TheSocial Security Administration’s Post-Implementation Review Process
        (A-14-10-30105)


        The attached final quick response evaluation presents the results of our review. Our
        objective was to assess the Social Security Administration’s Post-Implementation
        Review Framework and provide matters of consideration.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
   QUICK RESPONSE
    EVALUATION
The Social Security Administration’s
Post-Implementation Review Process

            A-14-10-30105




              June 2010
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                         Background
OBJECTIVE
The objective was to assess the Social Security Administration’s (SSA) Post-
Implementation Review (PIR) Framework 1 and provide matters of consideration.

BACKGROUND
The Office of Management and Budget (OMB) defines a PIR as a diagnostic tool to
evaluate the overall effectiveness of an agency’s capital planning and acquisition
process. 2 A PIR should be conducted on completed and terminated projects by an
independent review team. OMB Circular A-130, Management of Federal Information
Resources, requires that Federal agencies "…conduct post-implementation reviews of
information systems and information resources management processes to validate
estimated benefits and costs, and document effective management practices for
broader use." 3 In addition, OMB recommended that agencies consider various factors
when conducting PIRs, including strategic and mission impact and effectiveness;
customer and user satisfaction; investment performance; and evaluations of accuracy,
timeliness, and quality of project information. 4 The objectives of a PIR are to
          •   identify how accurately a capital investment project meets the agency’s
              objectives, expected benefits, and the strategic goals;
          •   ensure continual improvement of the agency's capital programming process
              based on lessons learned; and
          •   minimize the risk of repeating mistakes by providing quality services to business
              partners and customers. 5

In addition to OMB guidance, a Government Accountability Office (GAO) executive
guide provides an Information Technology Investment Management framework to
evaluate and assess how well an agency is selecting and managing its information
technology (IT) resources. The guide incorporates accepted or best practices in IT




1
 The Framework was developed to establish a standard PIR process that SSA planned to use for future
PIRs.
2
    OMB Capital Programming Guide, Version 2.0, June 2006, page 58.
3
    OMB Circular A-130, Management of Federal Information Resources, Section 8b(1)(d)(i).
4
    OMB Capital Programming Guide, Version 2.0, June 2006, pages 58 and 59.
5
    Id.


SSA’s Post-Implementation Review Process (A-14-10-30105)                                              1
investment management, as well as the reported experiences of Federal agencies and
other organizations in creating their own investment management process. 6
In July 2007, we issued a report that stated SSA's Office of the Chief Information Officer
(OCIO) had a PIR policy that generally met OMB’s PIR requirements. 7 Although the
policy was in place, SSA was not conducting PIRs. In addition, efforts by various
Agency components to evaluate IT projects were not coordinated or integrated to form a
system that, as a whole, would meet OMB’s PIR requirements.
In September 2008, GAO issued a report on whether SSA’s investment management
approach was consistent with leading investment management best practices. 8 GAO
concluded that SSA had established most (82 percent) of the basic practices needed to
manage its projects as investments, including many of the foundational practices for
selecting and controlling IT investments. However, in reference to SSA’s PIR process,
GAO reported that the Agency had not implemented all the policies and procedures for
the key practices. For example, the Agency did not evaluate quantitative data, which
limited its ability to determine whether investments met benefit expectations or identify
lessons learned for improving the investment management process. 9

In April 2009, SSA contracted with Booz Allen Hamilton to develop a framework for
conducting PIRs (referred to as the PIR Framework). Booz Allen Hamilton developed
the Framework and used it to perform a PIR on SSA’s iClaim application. 10 Agency
staff stated that the Framework was a work in progress and had not been formally
approved. Although the Framework was not formally approved, SSA continued to
perform PIRs using it.

For additional Background and Scope and Methodology, see Appendix B.




6
 GAO Executive Guide, Information Technology Investment Management, A Framework for Assessing
and Improving Process Maturity, GAO-04-394G, March 2004, GAO Highlights.
7
 SSA/OIG, Social Security Administration's Management of Information Technology Projects
(A-14-07-17099), July 26, 2007.
8
 GAO Report, SSA Has Taken Key Steps for Managing Its Investments, but Needs to Strengthen
Oversight and Fully Define Policies and Procedures, GAO-08-1020, September 2008, see the report
Highlights.

9
     See Footnote 8 and page 39.
10
  iClaim is SSA’s new Internet application implemented in December 2008 for retirement, disability, and
spouses benefits.


SSA’s Post-Implementation Review Process (A-14-10-30105)                                                  2
                                                   Results of Review
In our 2007 report, we stated SSA’s PIR policy generally met OMB’s requirements. 11
However, our current evaluation found SSA’s PIR process, as described in its PIR
Framework, needed enhancements to provide an effective PIR process that meets
Federal and SSA requirements. We identified three areas in which the Framework
needed improvement.

1. The Framework should include all PIR requirements.
2. The Framework should have incorporated some of the more common policies and
   procedures identified by GAO to ensure an effective and consistent PIR process.
3. The Framework should integrate with SSA’s IT Capital Planning and Investment
   Control (CPIC) and Project Management processes.

SSA’s Framework Should Include all PIR Requirements

SSA’s PIR Framework needed to be enhanced to meet Federal and Agency PIR
requirements. OMB Circular A-130 requires that Federal agencies conduct PIRs to
validate estimated benefits and costs and document effective management practices.
SSA’s PIR policy generally met OMB’s requirements (see a summary of SSA’s PIR
policy in Appendix B). However, SSA’s PIR Framework narrowly focused on validating
service requirements and performance metrics and excluded all other areas for
performing an effective PIR, as required by OMB guidance and SSA policy.

To meet OMB requirements, SSA’s PIR Framework should include the following steps:

      •   Conduct PIRs also for terminated projects.
      •   Compare estimated project costs to actual costs.
      •   Validate planned functionality and evaluate technical capability.
      •   Validate anticipated benefits, such as cost savings.
      •   Evaluate mission and program impact.
      •   Evaluate customer and user satisfaction.
      •   Identify gaps or deficiencies in the process used to develop and implement the
          investment.
      •   Provide lessons learned for improving future decision-making processes.




11
     See Footnote 7.


SSA’s Post-Implementation Review Process (A-14-10-30105)                                   3
In addition to the above steps to address Federal requirements, SSA PIR Framework
should also incorporate the following Agency requirements.

     •   Identify reasons for not achieving projected benefits.
     •   Evaluate and validate the original business assumptions.
     •   Determine how well the project met time schedules and implementation dates.
     •   Use SSA existing financial and project managements systems and information
         for conducting PIR.

Without incorporating these requirements, SSA’s PIR Framework would not provide a
comprehensive evaluation of how effective and efficient an IT project was implemented
and managed and whether it delivered expected benefits within budget and expected
timeframes.

SSA should consider enhancing its PIR Framework to meet Federal requirements, as
specified in OMB Circular A-130, and the Capital Programming Guide. The primary
objectives of SSA’s PIR Framework should
     •   identify how accurately a capital investment project meets the Agency’s
         objectives, expected benefits, and the strategic goals;
     •   ensure continual improvement of the Agency's capital programming process
         based on lessons learned; and,
     •   minimize the risk of repeating mistakes by providing quality services to business
         partners and customers.

SSA’s OCIO staff stated the Agency plans to incorporate more elements into its
Framework as the Framework matures.

The Framework Should Incorporate Some of the More Common Policies and
Procedures as Identified by GAO to Ensure an Effective PIR Process.

SSA’s Framework needed to be enhanced to incorporate some of the more common
policies and procedures for conducting an effective PIR, as described by GAO. SSA’s
PIR policy has incorporated some of these more common policies and procedures, but
its PIR Framework only provided a high-level description of the PIR process. 12 The
following table compares GAO’s common policies and procedures to SSA’s PIR policy
and Framework.




12
  GAO Executive Guide, Information Technology Investment Management, A Framework for Assessing
and Improving Process Maturity, GAO-04-394G, March 2004, pages 84 and 86.


SSA’s Post-Implementation Review Process (A-14-10-30105)                                         4
                GAO’s Common Policies and Procedures Compared to
                        SSA’s PIR Policy and Framework
GAO’s Common Policies
 and Procedures for an              SSA PIR                    SSA’s PIR
       Effective PIR                 Policy                   Framework
Who conducts and         SSA policy requires a        The Framework was silent
participates in a PIR    competent and objective team on this attribute.
                         to conduct a PIR.

                             Policy was silent on PIR
                             participants.
Types and sizes of           SSA policy stated that a PIR is   The Framework was silent
investments for which a      assigned by the Chief             on this attribute.
PIR is conducted             Information Officer at project
                             approval.

                             Policy was silent on the types
                             and sizes of investments that
                             require a PIR.
Appropriate timing to        SSA policy stated that a PIR is   The Framework was silent
conduct a PIR                normally conducted 3 to 12        on this attribute. SSA’s
                             months after the system           PIR Framework was
                             becomes operational, but does     developed based on the
                             not provide guidance for the      iClaim project, which has
                             timing of conducting a PIR for    multiple releases.
                             long-term projects.
                                                            The Framework needs to
                             Policy needs to clarify what   clarify how to conduct a
                             the term “operational” means   PIR on a system with
                             for long-term projects.        multiple releases.
What information is          SSA policy prescribes what     The Framework narrowly
presented in a PIR           information should be provided focuses on validating
                             by a PIR. See Appendix B.      service requirements and
                                                            performance metrics and
                                                            excludes all other areas
                                                            documented in SSA’s
                                                            policy.
The criteria and             SSA policy was silent on this  The Framework was silent
procedures for tailoring     attribute.                     on this attribute.
the standard PIR process
How conclusions, lessons SSA policy was silent on this         The Framework was silent
learned, and              attribute.                           on this attribute.
recommended
management action steps
are to be disseminated to
executives and others


SSA’s Post-Implementation Review Process (A-14-10-30105)                               5
According to GAO, an organization needs to document its policies and procedures for
conducting PIRs. 13 SSA should consider incorporating GAO’s more common policies
and procedures in its PIR policy and Framework. For example, SSA needs to
determine how to divide the long life-cycle projects, such as Title II System, into
manageable segments so a PIR can be conducted in an appropriate timeframe. By
incorporating these common policies and procedures in its PIR policies and Framework,
the Agency will conduct more efficient and effective PIRs.

SSA’s PIR Framework Needed to Fully Use Existing CPIC and Project
Management Documents, Information, and Processes

SSA’s PIR Framework did not fully use existing CPIC and Project Management
documents, information, and processes. OMB’s Capital Programming Guide requires
that agencies ensure each asset is evaluated consistently. In addition, the organization
should have a documented methodology for conducting PIRs. The methodology
chosen must be in alignment with the organization’s planning process and build on the
organization’s experiences. 14

SSA has an existing process, Post Release Review (PRR), for validating a project’s
technical requirements, functionality, and customer satisfaction. 15 SSA also has
established cost accounting and project management systems to track IT project
budgets and some actual costs. The Office of Systems’ (OS) Systems Planning and
Reporting System (SPARS) provides a repository for all IT planning proposals and
related project information, such as resource estimates, dates, and history of changes.
OS also uses the Resource Accounting System (RAS) to track actual labor hours in OS.
In addition, SSA has implemented an Earned Value Management (EVM) system to
track cost and schedule performance for its major IT investment projects. 16 Although
SSA has processes readily available to assist in performing a PIR, the Agency’s PIR
Framework does not fully use the documents and information obtained through these
systems. For example, because of the limited scope of the current PIR Framework,
labor costs, and other cost and budget data already documented in and accumulated
through the Agency’s PRR, SPARS, RAS, and EVM system may not be included in PIR
results.


13
  GAO Executive Guide, Information Technology Investment Management, A Framework for Assessing
and Improving Process Maturity, GAO-04-394G, March 2004, pages 84 and 85.
14
     OMB Capital Programming Guide, Version 2.0, June 2006, page 59.
15
   PRR, a planned review conducted with the customer, designated representatives, and other
appropriate stakeholders after system implementation (typically 90 days after the system has been
implemented to allow a period of real-time operation). The data collected from the PRR provide
information regarding a project’s success delivering what was promised in the Project Scope Agreement,
and is used to assess customer satisfaction.
16
  EVM is a project (investment) management tool effectively integrating the investment scope of work
with schedule and cost elements for optimum investment planning and control.


SSA’s Post-Implementation Review Process (A-14-10-30105)                                                 6
Therefore, to meet all Federal and Agency PIR requirements, SSA should consider
enhancing its Framework to provide additional user guidance on which documents and
information should be considered and analyzed in the PIR process. Further, the
Framework should use, to the extent possible, existing evaluation processes and
information systems. SSA should consider expanding the capability of the OS systems
to better meet its PIR needs. For example, the OS RAS only tracks OS and certain
contractors’ actual labor hours. SSA should consider expanding RAS to all Agency
components to capture all costs related to an IT project.




SSA’s Post-Implementation Review Process (A-14-10-30105)                              7
                                         Matters for Consideration
Federal agencies are required to effectively manage their capital assets to ensure
scarce public resources are spent wisely. A PIR is not only a tool to evaluate how
effectively an IT project meets Agency goals; it is also a tool that should be used for
identifying reasons for project failures. Further, PIRs are important to ensure
continuous improvement in SSA’s IT investment decision and management processes
and help avoid repeating mistakes in future IT projects.

SSA has implemented numerous IT projects to assist the Agency in meeting its mission
and goals. Without an effective PIR process, SSA will be unable to validate estimated
benefits and costs and document effective management practices for its IT projects. In
the past, SSA terminated some important projects; however, no comprehensive reviews
had been conducted to determine why these projects failed. 17

Our review found that, although OMB issued and documented PIR requirements, it has
not provided guidance on the process of conducting effective PIRs. We commend the
Agency’s efforts to develop a PIR policy and process. However, based on our review,
we are providing the Agency suggestions that we believe will help improve the Agency’s
PIR process and ensure its success. The Agency should consider (1) incorporating all
Federal requirements into its PIR Framework; (2) incorporating GAO’s more common
PIR policies and procedures to help ensure each IT investment is evaluated consistently
and PIRs are conducted efficiently and effectively; and (3) integrating existing CPIC and
Project Management information into its PIR process.




17
     These projects include Disability Service Improvement, Time Allocation System, and ePulling.



SSA’s Post-Implementation Review Process (A-14-10-30105)                                            8
                                          Appendices
APPENDIX A – Acronyms
APPENDIX B – Background and Scope and Methodology
APPENDIX C - OIG Contacts and Staff Acknowledgments




SSA’s Post Implementation Review (A-14-10-30105)
                                                           Appendix A

Acronyms
  CPIC     Capi
            apittal P
                    Pllanni
                        nning
                           ng a
                              and
                               nd IInv
                                    nves
                                      esttmen
                                           entt C
                                                Con
                                                 onttrol

  EVM      Ear
            arne
              ned
                d Val
                  Value
                     ue M
                        Ma
                         anag
                          nage
                             emen
                               entt

  GAO      Gov
            over
              ernm
                nmen
                   entt A
                        Acccoun
                            ounttabi
                                  bilit
                                    lityy O
                                          Offfice

  IT       Infor
              orm
                mat
                  atiion Tec
                         Technol
                            hnolog
                                ogyy

  OCIO     Off
           Offiice o
                   off th
                       the
                         eCCh
                            hief In
                                 Info
                                   forrmati
                                         tio
                                           on O
                                              Off
                                               ffiicer

  OIG      Office of
                  of tth
                       he IIns
                            nspec
                               pecttor Gener
                                        eneral
                                            al

  OMB      Office of Man
                      anag
                        agem
                          emeent and B
                                     Budg
                                       udget
                                          et

  OS       Off
           Offiice o
                   off S
                       Syyste
                           temms

  PIR      Pos
            ostt IIm
                   mpl
                     plem
                       ement
                         entat
                            atiion R
                                   Rev
                                    eviiew

  PRR      Pos
            ostt R
                 Rel
                  ele
                    eas
                     asee Rev
                          Reviiew

  RAS      Res
            esour
               ourcce Accou
                         ount
                           ntiing S
                                  Syystem

  SPARS    Systems Planning and Reporting System

  SSA      Social Security Administration
                                                                                  Appendix B

Background and Scope and Methodology
The Social Security Administration’s Post-Implementation Review
Policy

The Social Security Administration’s (SSA) policy requires a Post-Implementation
Review to produce the following.
•   Assessment of the project’s effectiveness in meeting the original objectives.
•    Determination of the project benefits that have been achieved, whether achieved
     benefits match projected benefits, and the reasons for any discrepancies.
•    Evaluations of whether the original business assumptions used to justify the project
     were valid.
•    Comparison of the actual costs incurred against projected costs, using the Agency’s
     official financial accounting, cost allocation, and budgeting systems to verify the
     information.
•    Determination of how well the project met time schedules and implementation
     dates.
•    Assessment of technical capability (for example, conformance to recognized
     systems development methodology, architecture compliance, contractor
     performance, and oversight).
•    Identification of all decisions, changes, actions, and results that occurred
     throughout the project’s life cycle, as well as other relevant project information, such
     as the business case, updated cost-benefit analyses, and Earned Value
     Management (EVM) System 1documentation.
•    Determination of management and user perspectives on the project.
•    Evaluation of issues that still require attention.




1
  EVM is a project (investment) management tool effectively integrating the investment scope of work
with schedule and cost elements for optimum investment planning and control.


SSA’s Post Implementation Review (A-14-10-30105)                                                B-1
•   Documentation of lessons learned and providing insights to improve the decision-
    making and oversight in its Information Technology Capital Planning and
    Investment Control 2

Scope and Methodology

To accomplish our objectives, we reviewed the following applicable Federal laws, Office
of Management and Budget (OMB) guidance, and Government Accountability Office
(GAO) common policies and procedures:

   Clinger Cohen Act of 1996
   OMB Circular A-130, Management of Federal Information Resources,
    November 28, 2000
   OMB Capital Programming Guide Version 2.0, June 2006
   GAO Executive Guide, Information Technology Investment Management,
    A Framework for Assessing and Improving Process Maturity, GAO-04-394G
We also obtained, reviewed, and compared the following SSA documents against the
above referenced criteria:

   DRAFT - SSA’s Post-Implementation Review Framework, August 2009.
   Social Security Administration FY 2010 Information Technology Capital
    Plan, September 2008.
   Social Security Administration FY 2010 Information Technology Capital Planning
    and Investment Control Process, February 2009.
Further, we interviewed personnel from SSA’s Office of the Chief Information Officer
and reviewed an Office of the Inspector General report, Social Security Administration's
Management of Information Technology Projects (A-14-07-17099), July 26, 2007.

The results of our review are based on the above information provided by SSA. We
performed our review during January through April 2010 in Baltimore, Maryland. The
entity reviewed was the Office of the Chief Information Officer. We conducted our
review in accordance with the Council of the Inspectors General on Integrity and
Efficiency’s Quality Standards for Inspections.




2
  OMB Circular A-130, Management of Federal Information Resources, Section 6c: The term "capital
planning and investment control process” means a management process for ongoing identification,
selection, control, and evaluation of investments in information resources. The process links budget
formulation and execution, and is focused on agency missions and achieving specific program outcomes.

SSA’s Post Implementation Review (A-14-10-30105)                                             B-2
                                                                     Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
       Brian Karpe, Division Director, Information Technology Audit Division

       Grace Chi, Acting Audit Manager


Acknowledgments
In addition to those named above:

       Tina Nevels, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-10-30105.




SSA’s Post Implementation Review Process (A-14-10-30105)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
